                                  EVALUATION




 U.S. PARK POLICE LAW ENFORCEMENT
 SERVICES FOR THE PRESIDIO TRUST




Report No.: WR-EV-NPS-0022-2013   September 2014
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


Memorandum

To:            Jonathan B. Jarvis
               Director, National Park Service

From:          Mary L.  Kendall ~
               Deputy Inspector General

Subject:       Final Evaluation - U.S. Park Police Law Enforcement Services for the Presidio
               Trust
               Report No. WR-EV-NPS-0022-2013

      This memorandum transmits the findings of our evaluation of the interagency agreement
between the Presidio Trust (Trust) and the National Park Service's (NPS) U.S. Park Police
(USPP) for law enforcement services.

         We evaluated the agreements in place to identify the criterion and methodology used by
NPS for funding USPP's services to the Trust and the extent to which USPP is recording and
billing the Trust for the full costs associated with its activities. We found that NPS' current
business practices for funding USPP's services at the Presidio violates appropriations law. In
addition, USPP tries to get full compensation for all services provided to the Presidio, but its own
billing practices impede collection. Our report contains six recommendations to improve NPS '
administration and management of its reimbursable agreements.

        After reviewing our draft report, NPS management responded our recommendations. In
the response, NPS stated that it did not concur with the three recommendations related to the
appropriations law finding, but it did concur with the others. We are referring all six
recommendations to the Assistant Secretary for Policy, Management and Budget to track their
implementation.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

       If you have any questions regarding this memorandum or the subject report, please
contact me at 202-208-5745 .




                               Office of Inspector General! W ashingto n, DC
Table of Contents
Results in Brief ....................................................................................................... 1
Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
      The Presidio Trust Act ..................................................................................... 2
      USPP and the Trust.......................................................................................... 2
      Funding ............................................................................................................ 3
      Reimbursement Practices ................................................................................ 4
Findings................................................................................................................... 6
   Appropriations Law Violation ............................................................................ 6
   Difficulty Collecting Full Reimbursement .......................................................... 8
      Untimely Billing .............................................................................................. 8
      Billing Records ................................................................................................ 9
      Reimbursement Rates .................................................................................... 10
Conclusion and Recommendations ....................................................................... 11
   Conclusion......................................................................................................... 11
   Recommendations and Summary of NPS’ Response to Our Draft Report ....... 11
Appendix 1: Scope and Methodology................................................................... 13
   Scope ................................................................................................................. 13
   Methodology ..................................................................................................... 13
Appendix 2: Office of General Counsel’s Legal Opinion (Removed from Public
Version)................................................................................................................. 14
Appendix 3: National Park Service Response to Draft Report ............................. 15
Appendix 4: Status of Recommendations ............................................................. 18
Results in Brief
The Presidio of San Francisco, established in 1776, served as a military outpost
for Spain, followed by Mexico, until the U.S. Army took over in 1846. When the
Presidio ceased to be an active military post in 1994, the U.S. Congress
incorporated the Presidio into the Golden Gate National Recreational Area and
made the National Park Service (NPS) responsible for both converting the
Presidio to public use and preserving the land as a national historic landmark.

In 1996, the Presidio Trust Act (Pub. L. No. 104-333) divided the Presidio into
two management areas: Area A and Area B. The Act also created the Presidio
Trust (Trust), a wholly owned government corporation whose purpose is to save
the Presidio and transform it for a new national purpose. The Trust manages Area
B’s 1,168 acres of land, which holds the majority of constructed infrastructure and
buildings. The Act also required the Trust to enter into a memorandum of
agreement with the Secretary of the U.S. Department of the Interior for law
enforcement activities and services to be provided by the U.S. Park Police
(USPP), a unit within NPS.

We evaluated the agreements in place to identify the criterion and methodology
used by NPS for funding USPP services to the Trust and the extent to which
USPP is recording and billing the Trust for the costs associated with its activities.

We found that NPS’ current business practice for funding USPP services at the
Presidio violates appropriations law. In addition, USPP tries to gain full
compensation for all services provided to the Presidio, but its own billing
practices impede collection.

We make six recommendations in this report to improve NPS’ administration and
management of its reimbursable agreements. NPS concurred with three of our
recommendations and is taking steps to implement them.




                                                                                    1
Introduction
Objective
Our objective was to evaluate the interagency agreements between the U.S. Park
Police (USPP) and the Presidio Trust (Trust) for law enforcement activities and
services. Specifically, we sought to identify the National Park Service’s (NPS)
criterion and methodology for funding USPP services to the Trust and the extent
to which USPP is recording and billing the Trust for the full costs associated with
its activities. See Appendix 1 for our report’s scope and methodology.

Background
The Trust is the wholly owned government corporation responsible for managing
the Presidio of San Francisco, a national historic landmark. As part of managing
the Presidio, the Trust entered into a number of agreements with USPP for law
enforcement services. USPP provides services using NPS funding, which the
Trust then reimburses.

The Presidio Trust Act
Established in 1776, the Presidio of San Francisco began as an army post for
Spain, followed by Mexico. In 1846, the U.S. Army took control of the Presidio
grounds. Over the next 148 years, the U.S. Army transformed the Presidio into a
military post. When the Presidio ceased to be a military post in 1994, Congress
incorporated it into the Golden Gate National Recreation Area and turned it over
to NPS for preservation and conversion to public use.

In 1996, the Presidio Trust Act (Pub. L. No. 104-333) created the Trust, which is
a wholly owned government corporation created to save the Presidio and
transform it for a new national purpose. The Act also divided the Presidio into
two management areas: Area A and Area B. Area A, managed by the Golden Gate
National Recreational Area, is 323 acres of coastal land. Area B, managed by the
Trust, is 1,168 acres of land on which most of the Presidio’s infrastructure and
buildings are located.

USPP and the Trust
The Act required the Trust to enter into a memorandum of agreement with the
Secretary of the Interior for USPP, a unit within NPS, to provide services to the
Presidio. 1 The Trust and the chief of USPP entered into four interagency
agreements to provide services for law enforcement, communications (e.g., 911
calls), special events, and parking enforcement. As shown in Figure 1, the law
enforcement agreement is the largest, at just under $4 million annually:




1
    Pub. L. No. 104-333 § 104(i).


                                                                                    2
                 USPP and Trust Interagency Agreements

                                                      Amount ($)
                     Agreement
                                                       FY 2013

                  Law Enforcement                                 3,978,200

                   Communications                                  695,000

                    Special Events                                 175,415

                 Parking Enforcement                                 50,000

                       TOTAL                                    4,898,615

Figure 1: The four interagency agreements between USPP and the Trust by amount.

USPP calculates the costs related to the law enforcement agreement using labor
and indirect costs. In fiscal year 2013, the agreement identified over $3.6 million
in labor costs and over $306,000 in indirect costs. USPP calculates labor costs by
the number of “beats” (officers) at the Presidio per 24 hours over the course of a
year. Indirect costs include such things as transportation and supplies. USPP
calculates indirect costs based on the number of USPP officers dedicated to the
Presidio versus the entire Golden Gate National Recreational Area. This
percentage is applied against USPP’s administrative and operational expenses to
identify the amount that the Trust should reimburse. Administrative and
operational expenses may include shift supervisor hours, criminal investigations,
and surveillance. For fiscal year 2013, USPP determined that services at the
Presidio accounted for 40 percent of all indirect costs.

For the communications agreement, USPP and the Trust split the personnel costs
of the Communications Center, which operates jointly with NPS. In return, NPS
covers the cost of equipment and maintenance. As for the special events and
parking enforcement agreements, both are reimbursed based on an average salary
rate identified by USPP.

USPP records these costs in the U.S. Department of the Interior’s Financial and
Business Management System (FBMS). USPP uses FBMS to track how much it
needs to bill the Trust and when it receives payment. Each agreement specifies
how often the Trust should reimburse USPP for the costs of services.

Funding
USPP is typically funded through the Operation of National Park System (ONPS)
appropriation, but the officers working at the Presidio are being funded through




                                                                                  3
the NPS construction appropriation account (construction account). 2 USPP bills
the Trust upon completion of services. The Trust reimbursement is applied to the
construction account.

Within the construction account, the NPS Comptroller’s Office establishes a
separate subaccount for each agreement. These subaccounts are to be closed out at
the end of the fiscal year, coinciding with the agreement’s period of performance,
when billing by USPP and payment by the Trust has been completed.

The NPS Comptroller’s Office has established this process for reimbursements
across all of NPS, estimated at $120 million annually, and NPS has deposited
reimbursements from a variety of sources this way for more than 30 years.
Examples of other reimbursement activities include providing cultural and natural
resource expertise, archeological services, and security assistance/background
investigations to other agencies.

Reimbursement Practices
USPP bills the Trust and receives payment through the Intra-Governmental
Payment and Collection (IPAC) system, which facilitates the transfer of funds
from one Federal agency to another.

When it is time to bill the Trust, the USPP San Francisco Field Office (SFFO)
notifies the NPS Accounting Operations Center (AOC) that the IPAC process is
ready to begin. Figure 2 illustrates the process.




2
  The construction account’s stated purpose, as established by Congress, is to fund “construction,
improvements, repair, or replacement of physical facilities.” Pub. L. No. 113-76. The ONPS appropriation
monies provide “expenses necessary for the management, operation, and maintenance of areas and facilities
administered by [NPS].” Id.


                                                                                                            4
                       Billing the Trust: The IPAC Process


                                   USPP SFFO notifies AOC that it is
                                   ready to begin the IPAC process
                                           (bill the Trust).



                                  AOC provides USPP SFFO with an
                                   FBMS expense documentation
                                              form.



                                 USPP SFFO completes the form and
                                       submits it to the Trust.




                                    The Trust reviews the expense
                                           documentation.




                                 The Trust notifies USPP SFFO when
                                      it approves the expenses.




                                   USPP SFFO notifies AOC that the
                                         Trust can be billed




                                         AOC initiates billing.




                                 Funds are tranferred from the Trust
                                   into the construction account,
                                    completing the IPAC process.


Figure 2. The IPAC process from start to finish.




                                                                       5
Findings
We found that NPS’ current business practice for funding USPP services at the
Presidio violates appropriations law. In addition, USPP tries to get full
compensation for all services provided to the Presidio, but its own billing
practices impede collection.

Appropriations Law Violation
NPS has violated appropriations law by using its construction account to
temporarily fund USPP services provided to the Trust. The NPS construction
account is only for “construction, improvements, repair, or replacement of
physical facilities.” 3 Monies in the construction account do not have to be
expended by the end of the fiscal year; they remain available until they are
expended. In contrast, expenditures for USPP at the Presidio are for salaries,
equipment, and administrative expenses, which are categorically different from
the construction appropriation’s stated purposes and better align with the ONPS
stated purpose of providing “expenses necessary for the management, operation,
and maintenance of areas and facilities administered by [NPS].” ONPS funds are
available only until the end of the fiscal year. Use of the construction account in
this manner therefore violates the Purpose Statute, 31 U.S.C. § 1301(a), which
states that an appropriation’s funds may be applied only to the appropriation’s
purpose unless otherwise provided by law. (See Appendix 2 for the full legal
analysis by our Office of General Counsel.)

When we notified NPS of this finding, NPS stated that the Economy Act,
31 U.S.C. § 1535, excepts its current business practice from the Purpose Statute in
this situation because when NPS performs reimbursable work for another agency
under the Economy Act, the reimbursing agency’s funding authority applies. NPS
further stated that because it has no specific appropriation to provide law
enforcement services to the Presidio, it has discretion to choose which of its
appropriations to use based on efficiency and convenience.

While this funding arrangement may be efficient and convenient, it violates
appropriations law. The Economy Act only creates an exception to the Purpose
Statute in the narrow sense that it allows a performing agency (in this case NPS)
to do work for a separately funded agency (the Trust) even though the performing
agency’s appropriation would normally only be used to fund its own activities. 4
The Economy Act does not allow the performing agency to disregard its
appropriations’ purpose, and when the agency has more than one appropriation, it
must use the appropriation most relevant to the services it intends to provide.

The principle that an agency doing work under the Economy Act must use its
most relevant appropriation stems from the legal requirement for the agency to be
3
    Pub. L. No. 113-76.
4
    Redbook v. III, ch. 12, p. 34.


                                                                                      6
“in a position” to perform that type of work. According to the U.S. Government
Accountability Office (GAO), the performing agency is legally in a position to do
work only if it is prepared to do the work from a practical standpoint, and the
work is consistent with its own legal authority. 5 GAO has established that the
“Economy Act does not give a performing agency any authority which it would
not otherwise have.” 6 Allowing an agency to ignore the purpose of its own
appropriations when doing work under the Economy Act would eviscerate the
requirement for it to legally be in a position to do the work.

Under the Economy Act, NPS can use its ONPS appropriation for USPP activities
at the Presidio on a reimbursable basis. By providing “expenses necessary for the
management, operation, and maintenance of areas and facilities administered by
[NPS],” the ONPS appropriation properly encompasses the operations and
expenses of USPP as a component of NPS. The Economy Act thus allows USPP
to provide its services to the Presidio using the same appropriation (ONPS) that
funds all other USPP activities.

NPS told us that ONPS funds are insufficient to pay for USPP operations at the
Presidio in advance of reimbursement from the Trust, which is a reason that NPS
uses the construction account instead. Performing agencies have alternatives
through 31 U.S.C. § 1535(b), however, to mitigate such difficulties, including
advance payment by the ordering agency, billing as soon as the work is
completed, or billing periodically as portions of the work are done. 7

In particular, advance payment under 31 U.S.C. § 1535(b) allows the performing
agency to bill the ordering agency in advance for the estimated cost of the work,
and that charge may later be adjusted according to the actual cost once the work,
or a given phase of it, is completed. Such an arrangement ensures an agency
providing services under the Economy Act does not run afoul of fiscal law or
suffer a fiscal shortfall as a result of providing those services.

The Department’s Office of Policy, Management and Budget would not opine on
how NPS handles the reimbursable funds, as each bureau or agency is responsible
for being its own “fund manager.” No departmental policy exists for handling
reimbursable funds.




5
  Redbook v. III, ch. 12, pp. 27 – 28.
6
  Id.
7
  Redbook v. III, ch. 12, p. 35 (citing GAO, “Program to Improve Federal Records Management Should Be
Funded by Direct Appropriations,” LCD-80-68 (June 23, 1980), at 12.


                                                                                                        7
Recommendations

We recommend that the NPS Director:

       1. Discontinue the use of the construction account for reimbursable
          agreements to provide USPP services to the Presidio, as such use
          violates the Purpose Statute;

       2. Initiate the use of interagency agreements using the ONPS
          appropriation to finance USPP operations at the Presidio and use
          advance payment for services, under 31 U.S.C. § 1535(b); and

       3. Review the other NPS reimbursable agreements that use the
          construction account as a financing mechanism, determine the proper
          appropriation to account for these reimbursable costs, and use advance
          payment for services.


Difficulty Collecting Full Reimbursement
Untimely Billing
USPP is historically untimely in its billing of the Trust for work completed.
Agreements require USPP to bill the Trust regularly, but USPP generally waits to
complete the IPAC process up to 6 months after the end of the fiscal year. For
example, as of the end of March 2014, USPP had not yet submitted cost
documentation for services provided in fiscal year 2013; therefore, the Trust has
not been able to approve the documentation or pay USPP.

NPS’ current business practice of funding USPP at the Presidio from its
construction account instead of ONPS, however, creates a situation in which
USPP does not need to bill the Trust in a timely fashion in order to remain
funded. ONPS funds are available only until the end of the fiscal year. Monies in
the construction account, however, do not have to be expended by the end of the
fiscal year; they remain available until they are expended. 8 In addition, billing to
the construction account prevents unreimbursed or inadequately reimbursed costs
from affecting the ONPS account. USPP therefore has no incentive to complete
the billing process promptly or accurately.

The Trust allows a 3-month extension from the end of the Federal fiscal year
(extending from the end of October to the end of December) for USPP to
complete the billing process. Because USPP does not complete the billing process
on time, the Trust consistently allows an additional 3-month extension (the end of
March). As this year was the Trust’s first year of self-sufficiency, the Trust needs
to know its true costs to allocate expenses to the Trust and its tenants.


8
    Pub. L. No. 112-74 (2013 appropriation).


                                                                                    8
 Recommendation

 We recommend that the NPS Director:

    4. Complete the IPAC process in accordance with the timelines identified
       by the agreements between USPP and the Trust and ensure sufficient
       documentation is provided to the Presidio Trust.


Billing Records
USPP SFFO and the Trust have reported different amounts left to be paid on their
interagency agreements. In early January 2014, after USPP headquarters sent its
FBMS report to the Trust showing the status of payments made by the Trust on
the agreements, the Trust’s contract manager notified USPP SFFO that the Trust
still had $1.1 million left to be billed on the agreements.

According to NPS, the inconsistencies stem from USPP’s issues with
implementing FBMS. USPP headquarters experienced significant turnover in
management and budget personnel prior to and during FBMS’ implementation.
This turnover resulted in poorly defined user roles and inadequate systems
training for headquarters and field staff.

USPP SFFO stated that it was unaware of the $1.1 million unpaid by the Trust
from fiscal year 2013 because the FBMS hierarchy structure does not authorize
the USPP SFFO budget officer to access detailed account information. The
information that USPP had access to indicated that the agreements were fulfilled.

USPP SFFO and the Trust both communicated with USPP headquarters and AOC
in an attempt to identify why they were reporting different amounts. The IPAC
process was not completed because USPP never notified AOC that the process
was ready to begin. USPP SFFO, however, did not initiate the IPAC process
because its access to FBMS indicated that the agreements had been fulfilled.
Because AOC was not notified, it never sent USPP SFFO the FBMS cost
documentation form, and USPP in turn did not submit that completed form to the
Trust. The Trust could not approve the payments because it did not have sufficient
documentation, and payment through the IPAC system could not be completed
without approval.

In 2013, USPP detailed an AOC employee to help implement FBMS. While new
budget personnel are being hired and trained in the headquarters location, USPP
did not know when FBMS training will reach field level due to staff workload.




                                                                                    9
 Recommendation

 We recommend that the NPS Director:

    5. Provide adequate FBMS training and access to USPP personnel and
       ensure roles and responsibilities are clearly defined and communicated.


Reimbursement Rates
USPP has no policy or practice in place for regularly verifying the accuracy of the
rates that it charges the Trust for the law enforcement agreement. Without regular
verification, USPP may not be realizing full reimbursement for actual costs of
services provided.

The Trust’s contract manager and an USPP SFFO official jointly verified USPP’s
rate calculation for the law enforcement agreement in 2007. The Trust’s contract
manager verified the rate calculation again in 2013. In both instances, it was the
Trust’s contract manager who initiated the rate calculation verification. USPP
does not regularly verify the rates it charges.

Both USPP and the Trust have acknowledged that these rates are “good faith”
estimates that are negotiated up front annually and then adjusted as needed
throughout the year as IPACs are submitted, and the Trust receives cost
documentation.

 Recommendation

 We recommend that the NPS Director:

    6. On a cyclical basis, validate the completeness and reasonableness of the
       labor and indirect cost allocations associated with USPP providing law
       enforcement services to the Presidio.




                                                                                10
Conclusion and Recommendations
Conclusion
NPS’ use of its construction account to fund USPP activities in the Presidio
violates appropriations law. The fact that funds are periodically reimbursed to the
construction account is irrelevant. In addition, USPP’s attempts to collect
reimbursement for all activities performed in the Presidio are impeded by its own
billing practices.

According to the NPS Comptroller’s Office, the use of the construction account’s
dollars allows reimbursable programs to continue business without the
interruptions that may occur due to the Federal appropriation process. Using the
construction account in this manner, however, not only violates appropriation
laws but also makes funds difficult to track and removes any incentive for USPP
to bill the Trust properly and accurately. In addition, this issue extends beyond the
Presidio. Currently, NPS uses the construction account to handle reimbursable
costs across NPS estimated at $120 million annually.

To ensure a continued beneficial relationship between the Trust and USPP, NPS
should change its current business practice for funding USPP activities at the
Presidio, and USPP should update its billing practices. These changes should
improve not only the relationship between USPP and the Trust, but increase
transparency in how business is conducted.

Recommendations and Summary of NPS’ Response
to Our Draft Report
We recommend that the NPS Director:

   1. Discontinue the use of the construction account for reimbursable
      agreements to provide USPP services to the Presidio, as such use violates
      the Purpose Statute;

   2. Initiate the use of interagency agreements using the ONPS appropriation
      to finance USPP operations at the Presidio and use advance payment for
      services, under 31 U.S.C. § 1535(b);

   3. Review the other NPS reimbursable agreements that use the construction
      account as a financing mechanism, determine the proper appropriation to
      account for these reimbursable costs, and use advance payment for
      services;

   4. Complete the IPAC process in accordance with the timelines identified by
      the agreements between USPP and the Trust and ensure sufficient
      documentation is provided to the Presidio Trust;



                                                                                  11
   5. Provide adequate FBMS training and access to USPP personnel and
      ensure roles and responsibilities are clearly defined and communicated;
      and

   6. On a cyclical basis, validate the completeness and reasonableness of the
      labor and indirect cost allocations associated with USPP providing law
      enforcement services to the Presidio.

In its response to our draft report, NPS did not concur with recommendations
1 through 3. We consider these recommendations unresolved and not
implemented, and will refer them to the Assistant Secretary for Policy,
Management and Budget for resolution.

NPS did, however, concur with recommendations 4 through 6 and is taking steps
to implement them. We consider these recommendation resolved but not
implemented, and we will refer them to the Assistant Secretary for Policy,
Management and Budget for tracking of implementation.

See Appendix 3 for the full text of NPS’ response. Appendix 4 lists the current
status of each of our recommendations.




                                                                                  12
Appendix 1: Scope and Methodology
Scope
We conducted our evaluation in accordance with Quality Standards for Inspection
and Evaluation as put forth by the Council of the Inspectors General on Integrity
and Efficiency. We believe that the work performed provides a reasonable basis
for our conclusions and recommendations.

Our scope did not include a detailed cost review of the signed interagency
agreements, nor did we review the data reliability of the various recording and
billing information systems.

Methodology
We conducted our evaluation work from July through December 2013. As part of
our evaluation, we—

   •   reviewed legislation, and sought to identify National Park Service (NPS)
       and departmental policies and procedures;
   •   obtained a legal opinion from the Office of Inspector General’s Office of
       General Counsel to identify whether NPS may pay for U.S. Park Police
       (USPP) operations on the Presidio with funds from its Construction
       appropriation, rather than its Operation of National Park System
       appropriation;
   •   reviewed prior reports issued by our office, the U.S. Government
       Accountability Office, and the Congressional Research Service;
   •   reviewed NPS budget justifications;
   •   reviewed Trust management plans; and
   •   reviewed interagency agreements between the Trust and USPP.

We visited or contacted the—

   •   Board representatives and contract manager for the Trust;
   •   USPP San Francisco Field Office command and budget officials;
   •   Golden Gate National Recreation Area superintendent and chief ranger;
   •   Deputy Comptroller and key officials from the NPS Accounting
       Operations Center;
   •   USPP’s acting chief and other key budget officials;
   •   Deputy Assistant Secretary of Budget, Finance, Performance and
       Acquisition and the Director of the Office of Budget; and
   •   Attorneys in the U.S. Department of the Interior’s Solicitor’s Office.




                                                                                  13
Appendix 2: Office of General
Counsel’s Legal Opinion
This appendix has been removed from the public version of this report. The
information is exempt pursuant to the Freedom of Information Act exemption 5
U.S.C. § 552 (b)(5).




                                                                               14
Appendix 3: National Park Service
Response to Draft Report
The National Park Service’s response to our draft report follows on page 16.




                                                                               15
                        United States Department of the Interior
                                                              .
                                           NATIONAL PARK SERVICE
                                                1849 C Street, N.W.
                                               Washington, D.C. 20240
IN REPLY REFER TO:


                                                  SEP 2 3 2014
Memorandum

To:                  Assistant Inspector General for Audits, Inspection, and Evaluations

From:                Director   f?e49~ D be,.e(
Subject:             Na~ Park Service Response to: Office oflnspector General Draft Evaluation
                     Report entitled: U.S. Park Police Law Enforcement Service for the Presidio Trust
                     (Report No. WR-EV-NPS-0022-2013)

The National Park Service (NPS) has reviewed the Office oflnspector General (OIG) Draft
Evaluation Report entitled: U.S. Park Police Law Enforcement Services the Presidio Trust
(WR-EV-NPS-0022-2012). The Inspector General's Evaluation Report expressed concerns about
the National Park Service interagency agreement between the Presidio Trust (Trust) and the
National Park Service U.S. Park Police (USPP) for law enforcement services and made six
recommendations.

Attached are the NPS' detailed responses to the OIG specific recommendations, including steps
the NPS will take or has taken to address the recommendations.

If you should have any questions or need additional information, please contact Vera
Washington, NPS Audit Liaison Officer, at (202) 345-1960 or Cameron Sholly, Associate
Director, Visitor and Resource Protection, at (202) 565-1020.

Attachment




                                                                                                 16
             National Park Service Response to: Office of Inspector General Draft Evaluation Report entitled: 

                            U.S. Park Police Law Enforcement Services for the Presidio Trust 

                                           {Report No. WR-EV-NPS-0022-2013} 


OIG Recommendation #1: Discontinue the use of the construction account for reimbursable agreements to provide
USPP services to the Presidio, as such use violates the Purpose Statute.

The National Park Service (NPS) has discussed the legal opinion on which this report is premised with the Office of the
Solicitor and PMB. Based on those conversations, they generally concur with the NPS' conclusion as to its legal authority.
Therefore, the NPS requests that OIG work with SOL and PMB before finalizing its conclusions as to applicable
appropriation laws.

OIG Recommendation #2: Initiate the use of interagency agreements using the ONPS appropriation to finance USPP
operation at the Presidio and use advance payment for services, under 31 U.S.C. § 153S(b).

See response to Recommendation #1.

OIG Recommendation #3: Review the other NPS reimbursable agreements that use the construction account as a
financing mechanism, determine the proper appropriation to account for these reimbursable costs, and use advance
payment for services.

See response to Recommendation #1.

OIG Recommendation #4: Complete the IPAC process in accordance with the timelines identified by the agreements
between USPP and the Trust and ensure sufficient documentation is provided to the Presidio Trust.

The NPS concurs with the OIG recommendation and has taken steps to begin implementation. The United States Park
Police is currently working with staff from the Presidio to ensure the process is solidified and understood by all parties.
The NPS will fully document the process, including checks and balances to ensure execution in accordance with the
parameters of the agreement, and clarify roles for all parties involved.
Target date for implementation: October 31, 2014
Responsible Official: Robert Maclean, Acting Chief, USPP

OIG Recommendation #5: Provide adequate FBMS training and access to USPP personnel and ensure roles and
responsibilities are clearly defined and communicated.

The NPS concurs with the OIG recommendation and has already taken steps to improve FBMS access and training of
staff. The USPP HQ Budget Office has also become more directly engaged in monitoring activities with the reimbursable
accounts and working directly with staff in the San Francisco Field Office and the Accounting Operations Center, and at
the Presidio . The process for executing the Presidio agreement will be documented, and roles and responsibilities within
the process will be made clear and communicated to all parties. USPP personnel with responsibilities for executing the
agreement will receive necessary training tailored to their specific roles .
Target date for implementation: December 12, 2014
Responsible Official: Robert Maclean, Acting Chief, USPP

OIG Recommendation #6: On a cyclical basis, validate the completeness and reasonableness of the labor and indirect
cost allocations associated with USPP providing law enforcement services to the Presidio.

The NPS concurs with the OIG recommendation and will develop a process and timelines for periodic review of labor and
indirect cost rates and allocations.
Target date for implementation: December 1, 2014
Responsible Official: Robert Maclean, Acting Chief, USPP



                                                                                                                  17
Appendix 4: Status of
Recommendations
In response to our draft report, the National Park Service concurred with three of
our six recommendations and stated that it was working to implement them. The
response included target dates and an action official for each recommendation
(see Appendix 3). We consider three recommendations unresolved and not
implemented, and three resolved but not implemented.

 Recommendations                     Status                Action Required
                                                          The recommendations
                                                          will be referred to the
                               Unresolved and not
         1, 2, 3                                           Assistant Secretary,
                                 implemented
                                                         Policy, Management and
                                                          Budget for resolution.
                                                          The recommendations
                                                          will be referred to the
                                Resolved but not           Assistant Secretary,
         4, 5, 6
                                 implemented             Policy, Management and
                                                          Budget for tracking of
                                                             implementation.




                                                                                 18
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
